No. 19IN THE

Ouprente Court of the Eniteb iptateo
IN RE: FEDERAL BUREAU OF PRISONS' EXECUTION
PROTOCOL CASES
JAMES H. ROANE, JR., et al.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 5, 2020.

Colin Casey
gan
Wilson-Epes Printing Co., Inc.

